<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: THE NATIONAL PREPAREDNESS SYSTEM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: THE NATIONAL 
                          PREPAREDNESS SYSTEM

=======================================================================

                                (115-6)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 16, 2017
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             

     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
             
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
24-657 PDF                 WASHINGTON : 2019             
             
             
             
             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  HENRY C. ``HANK'' JOHNSON, Jr., 
BARBARA COMSTOCK, Virginia               Georgia
MIKE BOST, Illinois                  ELEANOR HOLMES NORTON, District of 
LLOYD SMUCKER, Pennsylvania              Columbia
JOHN J. FASO, New York               ALBIO SIRES, New Jersey
A. DREW FERGUSON IV, Georgia,        GRACE F. NAPOLITANO, California
  Vice Chair                         MICHAEL E. CAPUANO, Massachusetts
BRIAN J. MAST, Florida               PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               WITNESSES

Hon. Catherine Pugh, Mayor, City of Baltimore, on behalf of the 
  United States Conference of Mayors:

    Testimony....................................................     6
    Prepared statement...........................................    37
    Responses to questions for the record from Hon. Lou Barletta, 
      a Representative in Congress from the State of Pennsylvania    43
Wendy Smith-Reeve, Director, Arizona Department of Emergency and 
  Military Affairs Division of Emergency Management, on behalf of 
  the National Emergency Management Association:

    Testimony....................................................     6
    Prepared statement...........................................    46
    Responses to questions for the record from Hon. Lou Barletta, 
      a Representative in Congress from the State of Pennsylvania    55
Nick Crossley, CEM, CPM, Director, Emergency Management and 
  Homeland Security Agency of Hamilton County, Ohio, on behalf of 
  the International Association of Emergency Managers and the 
  National Association of Counties:

    Testimony....................................................     6
    Prepared statement...........................................    59
    Responses to questions for the record from the following 
      Representatives:

        Hon. Lou Barletta of Pennsylvania........................    63
        Hon. Brian J. Mast of Florida............................    64
Joseph Lawless, Director of Maritime Security, Massachusetts Port 
  Authority, on behalf of the American Association of Port 
  Authorities:

    Testimony....................................................     6
    Prepared statement...........................................    65
    Questions for the record for Mr. Lawless from Hon. Lou 
      Barletta of Pennsylvania and Hon. Brian J. Mast of Florida.    68
Art Martynuska, President, Pennsylvania Professional Fire 
  Fighters Association, on behalf of the International 
  Association of Fire Fighters:

    Testimony....................................................     6
    Prepared statement...........................................    69
    Questions for the record for Mr. Martynuska from Hon. Lou 
      Barletta, a Representative in Congress from the State of 
      Pennsylvania...............................................    74
Thomas Roberts, Assistant Sheriff, Las Vegas Metropolitan Police 
  Department:

    Testimony....................................................     6
    Prepared statement...........................................    75
    Responses to questions for the record from Hon. Lou Barletta, 
      a Representative in Congress from the State of Pennsylvania    81
William Daroff, Senior Vice President for Public Policy and 
  Director, Washington Office, the Jewish Federations of North 
  America:

    Testimony....................................................     6
    Prepared statement...........................................    86
    Responses to questions for the record from Hon. Lou Barletta, 
      a Representative in Congress from the State of Pennsylvania    90
Michael Feinstein, President and Chief Executive Officer, Bender 
  Jewish Community Center of Greater Washington:

    Testimony....................................................     6
    Prepared statement...........................................    93
    Responses to questions for the record from Hon. Lou Barletta, 
      a Representative in Congress from the State of Pennsylvania    97

                       SUBMISSIONS FOR THE RECORD

Letter of March 16, 2017, from Nathan J. Diament, Executive 
  Director, Union of Orthodox Jewish Congregations of America, to 
  Hon. Lou Barletta, Chairman, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management........    99

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
     BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: THE NATIONAL 
                          PREPAREDNESS SYSTEM

                              ----------                              


                        THURSDAY, MARCH 16, 2017

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The subcommittee will come to order.
    Before we begin, I ask unanimous consent that members not 
on the subcommittee be permitted to sit with the subcommittee 
at today's hearing and ask questions.
    Welcome to our first subcommittee hearing of the 115th 
Congress. I would like to thank Chairman Shuster for giving me 
the opportunity to serve again as chairman of this 
subcommittee. Welcome to our new ranking member, Mr. Johnson, 
and welcome to the new and returning members of the 
subcommittee.
    I look forward to building on our bipartisan record of 
accomplishment from the last two Congresses. Since 2013, we 
have saved $3.4 billion on GSA projects, passed the Sandy 
Recovery Improvement Act, passed the Federal Assets Sale and 
Transfer Act, and continue to look for ways to drive down 
rising disaster costs and losses. These were major 
accomplishments, and I thank everyone who was involved in them.
    This Congress, my two top priorities are public buildings 
reform and disaster legislation. I think that we can exceed the 
GSA savings from last Congress, and we have some important 
reforms to get across the finish line in the emergency 
management world. I hope we can have disaster legislation and a 
GSA reform bill ready for the committee to consider in the 
first half of this year.
    The purpose of today's hearing is to look at the resources 
and investments that have gone into building the National 
Preparedness System, which was authorized 10 years ago in the 
Post-Katrina Emergency Management Reform Act.
    Since 2013, more than $47 billion in preparedness grant 
funding has been provided to State, Territorial, local, and 
Tribal governments to help reach the current level of national 
preparedness. This funding has helped these entities prepare to 
rebuild our infrastructure and communities when disasters 
strike.
    The State Homeland Security Grant Program and the Urban 
Areas Security Initiative helped first responders prepare for 
potential acts of terrorism by supporting planning, training, 
and equipment needs. The Assistance to Firefighters Grant [AFG] 
program, including the SAFER [Staffing for Adequate Fire and 
Emergency Response] and Fire Prevention and Safety Grants, help 
fire departments improve their baseline emergency response 
capability.
    The Emergency Management Performance Grant provides Federal 
funding to State and local governments for planning, training, 
exercises, and key emergency management personnel. Port 
Security Grant funds are used to secure and harden port 
facilities against the potential of a terror attack.
    These grants play an important role in building and 
sustaining the National Preparedness System.
    As a former mayor, I know all too well what it means to be 
a good neighbor and how critical help from your surrounding 
communities can be in times of emergency. No single community 
can handle every disaster on its own, and no community can 
afford all of the equipment and personnel to handle every 
disaster. These grants make it possible for mutual aid between 
communities and across our country.
    For example, not every city can afford a Level 1 urban 
search and rescue team. In fact, if every city had a team, the 
teams wouldn't have enough resources and would receive 
insufficient training because already limited resources would 
be spread too thin. But during a big disaster, help pours in 
from all directions in a timely manner, and emergency managers 
make this possible. They get the right resources to the right 
place in the fastest time. Their actions save lives and 
property.
    So we have to make sure that investments in the National 
Preparedness System are wise investments and that the taxpayer 
is getting the biggest bang for its buck. We also need to make 
sure that resources are being directed to where they are needed 
the most.
    Over the past 15 years, we have made significant progress 
in improving the Nation's ability to prevent, protect against, 
mitigate, respond to, and recover from disasters, both natural 
and manmade.
    But what work remains to be done? For example, I know many 
fire departments still lack the most basic requirements for a 
safe and effective response. Many firefighters still share 
personal protective equipment and gear. In addition, other fire 
departments are operating with severely outdated and sometimes 
inoperable equipment. The AFG and SAFER programs help local 
fire departments meet these critical needs.
    In Pennsylvania, 97 percent of our fire departments are all 
or mostly volunteer. In my own district, the Freeland Fire 
Department was able to obtain a fire grant for 103 sets of 
personal protective equipment, replacing outdated equipment 
which does not meet the current safety standards. This 
equipment is essential for firefighters to do their job and to 
keep them safe. I also have another community trying to replace 
a 42-year-old fire engine. Without these grant funds, these 
communities would not be able to secure the needed equipment.
    While we are talking about the firefighter community, 
please let me take 1 minute to recognize a devastating loss in 
Harrisburg. Last Friday, Lieutenant Dennis DeVoe of Mount 
Pleasant Fire Company No. 8 was killed by a drunk driver while 
trying to respond to a deadly house fire.
    Mr. Martynuska, please carry our prayers and condolences 
back to the Pennsylvania firefighter community and to 
Lieutenant DeVoe's wife and four children.
    I am also particularly concerned right now about the recent 
wave of bomb threats to Jewish community centers across our 
country. Over the last two decades, Jewish institutions have 
been the target of domestic terrorist attacks. The current 
threats are outrageous, and we must do more to protect these 
targeted institutions.
    FEMA has been charged with the difficult task of developing 
and managing the many components that build the National 
Preparedness System, from the national preparedness goal, 
hazard, and risk assessments, State and Federal preparedness 
reports, and preparedness grants.
    Today, we have brought together the key stakeholders that 
receive various preparedness funds to understand how they 
leverage this Federal investment to build national 
preparedness. These stakeholders represent our Nation's first 
responders and emergency managers. These are the people who 
work daily to build preparedness, response, recovery, and 
mitigation capabilities to make our communities more resilient 
to vulnerabilities regardless of the cause.
    I look forward to the conversations we will have today on 
the success our Nation has achieved and where we need to focus 
to continue to build a prepared 21st-century infrastructure. I 
thank you all for being here.
    I now call on the ranking member of the subcommittee, Mr. 
Johnson, for a brief opening statement.
    Mr. Johnson. Thank you, Mr. Chairman.
    I want to thank the ranking member of the committee as well 
as my fellow committee members in allowing me to serve in this 
distinguished capacity as ranking member of this subcommittee. 
I am pleased to be here today, and I am excited to work with 
Chairman Barletta and others on the subcommittee to advance the 
important issues of emergency management as well as other 
issues over which we have jurisdiction.
    Emergency preparedness and response are important issues 
that most take for granted until a disaster happens, and then 
suddenly there is a need for emergency services. Only then are 
we, many of us, reminded of the need for a substantive 
examination of what could have or should have occurred before 
the emergency or disaster happened.
    It is reassuring to know that this committee is one of the 
few that proactively examines the issues and needs of our 
communities as well as our talented emergency managers and 
first responders who have to endure in the face of often tragic 
consequences.
    A case in point: Earlier this year, two back-to-back 
tornadoes struck Georgia that caused substantial damage and 
forced hundreds into temporary housing shelters. Our first 
responders who lived in those same communities had to continue 
to do their jobs even as their families, friends, and other 
loved ones, perhaps even unknowing to them, had been injured or 
rendered homeless.
    This Congress, I look forward to advancing economic 
development issues across the Nation, especially in 
underperforming areas. While much of the country recovered 
economically and unemployment dropped to 4.6 percent under the 
Obama administration's policies, there are still pockets in the 
country that are hurting and in need of further economic 
development assistance.
    The ``2016 National Preparedness Report'' assesses the 
Nation's achievement and identifies any gaps in meeting the 32 
core capabilities identified in the national preparedness 
goals. The 2016 report found a few areas where State and local 
first responders have adequately met their goals but now need 
to focus on maintaining those capabilities. Moreover, the 
report found several areas where the Nation is lacking, such as 
recovery, and we need to ensure a sustained commitment to these 
areas.
    This is important because the administration is proposing 
drastic cuts to FEMA's preparedness activities. The budget was 
released this morning, and now we are having the opportunity to 
ponder these drastic cuts and the skinny budget situation for 
ourselves.
    Disasters will always occur, so we should be investing in 
pre-disaster mitigation to save lives, minimize damage, and 
speed up recovery. Reports have shown that for every dollar 
invested in pre-disaster mitigation we save $3 to $4 on the 
back end.
    Despite needing more work, our emergency management system 
is recognized worldwide as being one of the best. Without 
sustained funding to maintain the capabilities that we have 
obtained and to focus on those capabilities that need 
improvement, we will fall behind.
    I look forward to today's testimony, and I welcome our 
witnesses to this hearing on the National Preparedness System 
and the non-disaster grants used to develop core capabilities 
to ensure a robust and prepared Nation for all hazards.
    Thank you, and I yield back.
    Mr. Barletta. Thank you, Ranking Member Johnson.
    At this time, I would like to recognize the chairman of the 
full committee, Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman, and thank you for 
holding this hearing on national preparedness.
    Don't let the number of Members here--not think this is a 
really important meeting. There is a Committee on the Budget 
hearing going on today, so that is where all the action is. If 
you saw the front page of the Washington Post, it is going to 
be an interesting several weeks here in Washington.
    And I want to also say special thanks to the mayor of 
Baltimore, Mayor Pugh. Thank you for coming. I understand you 
have to give the State of the City Address today so you will be 
leaving before the end of this, but we really appreciate your 
input and your views on preparedness and all the things that 
FEMA does in the Federal Government and interacting with your 
city. So thank you for being here.
    I think everything has already been said about FEMA, the 
details. And FEMA is extremely important to the national 
preparedness--preparing, coordinating, facilitating the Federal 
response in disasters, whether manmade or natural. And in the 
last 15 years, FEMA has responded to almost 2,000 natural 
disasters and emergencies to rebuild our infrastructure in our 
communities.
    There is little doubt, if you see what is on the front page 
of The Washington Post today, we need to rein in the budget. So 
we are going to have to take a close look at the President's 
proposal, but it will come in favor of making sure we tighten 
our belt, just like the city of Baltimore has to do at times, 
just like families across America have to do.
    So we all have to look very hard and find out ways that we 
cut the fat but we don't cut the muscle, because that is 
incredibly important to us. But reducing the size and scope of 
Government is something we need the make sure we are focused 
on. And in these times of budgetary uncertainty, we need to 
prepare to do more with less. That is just the way it is 
sometimes to get our financial house in order.
    However, FEMA and the National Preparedness System's role 
in keeping our vital infrastructure open and functioning in 
times of emergency cannot be understated. And we have to make 
sure--as I said, we will take a close look at the President's 
budget and see where those cuts are, especially when it comes 
to FEMA and national preparedness.
    But we have to make sure we do everything--that FEMA has 
the resources so that when an unexpected natural disaster 
occurs, or a manmade event, that the resiliency of the 
infrastructure is there and that we keep America safe and 
competitive.
    So, again, I appreciate all of you being here today, 
especially, Mayor, really appreciate you taking the time out of 
your day to do this, and look forward to hearing your 
testimony.
    Thank you.
    Mr. Barletta. Thank you.
    We have assembled a panel of key stakeholders that 
represent various aspects of the preparedness system and the 
spectrum of grant uses.
    The Honorable Catherine Pugh, the mayor of Baltimore, will 
be testifying on behalf of the United States Conference of 
Mayors.
    Wendy Smith-Reeve, the director of the Arizona Department 
of Emergency and Military Affairs Emergency Management Division 
is here, representing the National Emergency Management 
Association.
    Nick Crossley, the director of the Hamilton County, Ohio, 
Emergency Management and Homeland Security Agency in 
Cincinnati, will bring testimony for the International 
Association of Emergency Managers and the National Association 
of Counties.
    Welcome to Art Martynuska, the president of the 
Pennsylvania Professional Fire Fighters Association, who will 
be testifying for the International Association of Fire 
Fighters.
    The Massachusetts Port Authority maritime security 
director, Joe Lawless, has joined us and will offer testimony 
on behalf of the American Association of Port Authorities.
    We will also hear testimony from Mr. Tom Roberts, the 
assistant sheriff from the Las Vegas Metropolitan Police 
Department.
    William Daroff is the senior vice president for public 
policy and director of the Washington office of the Jewish 
Federations of North America.
    And welcome to Michael Feinstein, president and chief 
executive officer, Bender Jewish Community Center of Greater 
Washington.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    For our witnesses, since your written testimony has been 
made a part of the record, the subcommittee would request that 
you limit your oral testimony to 5 minutes.
    And as stated, I know Mayor Pugh has to get back for her 
State of the City Address and needs to leave early, so let's 
get started.
    Mayor Pugh, please proceed.

TESTIMONY OF HON. CATHERINE PUGH, MAYOR, CITY OF BALTIMORE, ON 
 BEHALF OF THE UNITED STATES CONFERENCE OF MAYORS; WENDY SMITH-
 REEVE, DIRECTOR, ARIZONA DEPARTMENT OF EMERGENCY AND MILITARY 
  AFFAIRS DIVISION OF EMERGENCY MANAGEMENT, ON BEHALF OF THE 
NATIONAL EMERGENCY MANAGEMENT ASSOCIATION; NICK CROSSLEY, CEM, 
   CPM, DIRECTOR, EMERGENCY MANAGEMENT AND HOMELAND SECURITY 
AGENCY OF HAMILTON COUNTY, OHIO, ON BEHALF OF THE INTERNATIONAL 
ASSOCIATION OF EMERGENCY MANAGERS AND THE NATIONAL ASSOCIATION 
  OF COUNTIES; JOSEPH LAWLESS, DIRECTOR OF MARITIME SECURITY, 
    MASSACHUSETTS PORT AUTHORITY, ON BEHALF OF THE AMERICAN 
  ASSOCIATION OF PORT AUTHORITIES; ART MARTYNUSKA, PRESIDENT, 
PENNSYLVANIA PROFESSIONAL FIRE FIGHTERS ASSOCIATION, ON BEHALF 
   OF THE INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS; THOMAS 
   ROBERTS, ASSISTANT SHERIFF, LAS VEGAS METROPOLITAN POLICE 
 DEPARTMENT; WILLIAM DAROFF, SENIOR VICE PRESIDENT FOR PUBLIC 
POLICY AND DIRECTOR, WASHINGTON OFFICE, THE JEWISH FEDERATIONS 
 OF NORTH AMERICA; AND MICHAEL FEINSTEIN, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, BENDER JEWISH COMMUNITY CENTER OF GREATER 
                           WASHINGTON

    Mayor Pugh. First, let me say, Chairman Barletta, thank you 
and the Ranking Member Johnson and the members of this 
committee. I am Catherine Pugh. I am the mayor of Baltimore, 
and believe it or not, this is my 100th day as the mayor of the 
city of Baltimore.
    I did have the honor, by the way, to meet President Trump 
when he was President-elect when he came over to Baltimore to 
our Army-Navy game, and I want you to know that the letter that 
I handed him and the conversation that I had was around our 
infrastructure needs in our city.
    And as you well know, we are pleased that this subcommittee 
is led by you, two veterans of local government. Chairman 
Barletta, we especially appreciate the opportunity to discuss 
these issues with you, as a former mayor. I am a relatively new 
mayor, but my colleagues tell me, once a mayor--as you, I am 
sure, feel--always a mayor. And we expect that Ranking Member 
Johnson, as a former DeKalb County commissioner who is married 
to a current one, will also understand our perspective on these 
issues. It is the local first responders who are first on the 
scene when an event occurs and local officials who manage the 
response.
    My basic message today is that mayors of all of our cities, 
local officials across this Nation strongly support the 
existing menu of preparedness programs. I understand what you 
say in terms of cutting the fat, but I can tell you that in 
urban environments you will find very little fat. They are 
working and have improved our capabilities. Particularly 
important is the incentives they provide for Federal, Tribal, 
State, Territorial, and local jurisdictions to work together.
    There have been cuts in the funding available through 
several key programs in recent years, and we are alarmed by the 
additional cuts which we know, by the release of today's 
budget, are coming. These funding reductions have had and will 
have a significant impact on our ability to sustain and enhance 
capabilities in Baltimore and in cities across the Nation at a 
time when we see an increase in the number and intensity of 
natural disasters and an increase in violent extremism and 
incidents of terrorism.
    And let me just add that when you are surrounded by water--
so I was so glad to see the Representative from Boston here, 
because we have a lot in common. The April 15, 2013, bombing at 
the Boston Marathon continues to provide an excellent example 
of how DHS investments, provided through the Urban Areas 
Security Initiative program, have really paid off. There can be 
no doubt that they contributed significantly to the Boston 
area's quick and effective response to this horrific act of 
terrorism.
    Since 2003, the Baltimore UASI has invested tens of 
millions of dollars in preparedness initiatives that have 
benefited our city and our region. Recent and expected further 
funding cuts, however, are severely affecting our ability to 
maintain and build on these investments and cut across law 
enforcement, fire, health and human services, information 
technology, and the many other public safety services we rely 
on every day.
    And I was listening to you, Chairman Barletta, when you 
talked about the fact that fires occur and people die, and I am 
reminded of six babies who died in a recent fire in Baltimore. 
And much of the equipment that we need we just don't have, and 
we need more.
    For over 10 years, the city of Baltimore has led the 
efforts of regional Maryland Task Force 2 urban search and 
rescue teams, which can respond to regional, State, and 
national disasters, earthquakes, hurricanes, widespread 
tornadoes, and manmade and terrorist events within 2 hours.
    The Emergency Management Performance Grant and other 
preparedness grant programs have been essential to the staffing 
and operations of our Office of Emergency Management.
    I actually got a chance to spend all day--because we didn't 
know whether we were going to get the 9 inches of snow or the 2 
inches of snow--in our Office of Emergency Services just to see 
how well it works but, more importantly, how all of us come 
together to make sure that we can respond to any emergencies in 
our city.
    Unfortunately, due to this drastic funding cut, the city of 
Baltimore and Baltimore UASI funding to maintain support and 
enhance our team was eliminated. I must say that we appreciate 
the work which this committee has done to strengthen the urban 
search and rescue program, and I am sure you share our concerns 
on the impact of these cuts on our team in Baltimore.
    Based on our experience with the National Preparedness 
System, America's mayors recommend the following:
    We urge Congress to resist further cuts in preparedness and 
other homeland security programs. We urge you to continue to 
resist any attempts to consolidate homeland security grants. 
And I say that because many of our cities survive in different 
environments, whether we are surrounded by water or surrounded 
by land or have massive transportation systems or none at all. 
All of us count on these kinds of grants.
    We suggest that any program reform or change be consistent 
with the following principles developed by the U.S. Conference 
of Mayors and other organizations which represent local 
governments, first responders, and emergency managers: increase 
transparency, and we are all for that; increase local 
involvement; provide flexibility with accountability; protect 
local funding; sustain terrorism prevention; provide incentives 
for metropolitan area regionalization.
    And I can tell you that, as a former State senator who has 
a great relationship with her counterparts in both Baltimore 
County and Prince George's County--and I think about my Harford 
County executive, who was my best friend, who happens to be a 
Republican, but, however, we were best friends and runners both 
in the Senate, who I cheered on to become a member of my 
committee, is now the Harford County executive. And my Howard 
County executive, who also--we, all three of us, served on the 
same committee. So we know that regionalism is important and 
that we can work together.
    We believe that the FEMA Administrator should have 
emergency management experience at the local level. While we 
understand the need to reduce costs, we want you to know that 
we have significant concerns with the disaster deductible 
concept that FEMA has proposed.
    I appreciate this opportunity to testify before you today 
on this issue of vital importance to me, my city, and my region 
and to mayors and other local officials across the Nation. The 
U.S. Conference of Mayors looks forward to working with you to 
continue to strengthen the National Preparedness System.
    Thank you so much for this opportunity.
    Mr. Barletta. Yeah, and thank you for your testimony. And I 
understand what you went through trying to remove the snow. I 
left my hometown yesterday, where they had 30 inches of snow.
    Mayor Pugh. Wow.
    Mr. Barletta. So I am very happy I am not the mayor today.
    Mayor Pugh. I am sure you are.
    Mr. Barletta. But, you know, there is a perfect example, 
where I had a conference call with the mayor and State 
officials, and, you know, they just had received a call--the 
police chief said they had just received a call where a woman 
was stuck in her home. She needed her dialysis treatment, and 
there was no way to get her out, with all the snow, whether the 
National Guard had to come in--but these are the situations 
that you deal with every day. So thank you----
    Mayor Pugh. So you can imagine, your 30 inches of snow 
would be like 9 inches in Baltimore.
    Mr. Barletta. Yeah. Right.
    Mayor Pugh. And so we had to make sure all the seniors had 
food. We had to make sure that all of our centers were open to 
take care of the homelessness. So all of these things are 
important to us.
    Mr. Barletta. And there is very little money in your budget 
to deal with that.
    Mayor Pugh. Very little. Very little.
    Mr. Barletta. Thank you for your work.
    Mayor Pugh. Thank you so much. I appreciate it.
    Mr. Barletta. Thank you.
    Ms. Smith-Reeve, you may proceed.
    Ms. Smith-Reeve. Thank you so much.
    It is probably not a good time to just note that I came 
from 90-degree weather. We have had snowstorms in the past, and 
I understand the complexities associated with that. And just 
like any other natural disaster, we all have to work together 
to ensure that we support and assist our community.
    So good morning and thank you, Chairman Barletta, Ranking 
Member Johnson, and distinguished members of the subcommittee, 
for allowing me to testify before you today to discuss the role 
of the National Preparedness System in building and supporting 
a strong 21st-century infrastructure for America.
    My name is Wendy Smith-Reeve. I am the director for the 
Arizona Department of Emergency and Military Affairs Division 
of Emergency Management, and I also serve as the president of 
the National Emergency Management Association. NEMA represents 
the State emergency management directors of all 50 States, 8 
territories, and the District of Columbia.
    ``Presidential Policy Directive 8: National Preparedness'' 
recognizes that preparedness is a shared responsibility. At its 
core, this directive requires the involvement of the whole 
community in a systematic effort to keep the Nation safe from 
harm and resilient when struck by hazards such as natural 
disasters, acts of terrorism, and pandemics.
    The foundation of the National Preparedness System is the 
Threat Hazard Identification and Risk Assessment process, known 
as THIRA. While not perfect, we believe THIRA and the larger 
National Preparedness System structure has provided a baseline 
against which we can now measure progress towards a common 
goal.
    Improvements and tweaks will always be needed to ensure the 
process represents and incorporates the best available data and 
measures key indicators that communicate the gaps that exist 
and progress made over time. This reality must be balanced, 
however, with the need for change to improve outcomes and not 
succumb to the interest in change for the sake of change that 
could set us back years.
    The implementation tool for the critical functions of the 
National Preparedness System is the suite of preparedness 
grants administered by FEMA that are essential to State, 
Tribal, county, and local governments.
    From what we understand based on preliminary details from 
the fiscal year 2018 budget blueprint, significant cuts may be 
proposed to some preparedness grants, including the Emergency 
Management Performance Grant and the State Homeland Security 
Grant Programs. It is impossible to imagine a scenario in which 
these cuts, as significant as they are, do not, over time, 
affect and erode the operational capabilities at the State, 
Tribal, county, and local levels.
    These proposed cuts are not reflective of our homeland's 
current threat environment. The threat of terror attacks here 
in the United States continues to evolve and increase, and 
communities in every State face the ever-changing and emerging 
threats from natural disasters.
    FEMA's all-hazards focus allows capabilities to be built 
and utilized in a number of various events, ranging from 
wildfires in the West, Hurricane Matthew in the East, and 
response to terror events in Chattanooga, Fort Hood, Boston, 
and San Bernardino. 2016 included a range of hazards which 
resulted in 53 emergency and major disaster declarations by the 
President and 47,778 events that were resolved through the 
thriving emergency management system that exists at the State, 
county, and local and Tribal levels.
    Capabilities afforded through EMPG contributed to the 
ability of those events to be managed without additional 
Federal expenditures. By proposing significant cuts for fiscal 
year 2018, our investments since the inception of these grants 
are at risk and may actually increase costs to the Federal 
Government if more events begin to exceed State and local 
capabilities as a direct result of our inability to maintain 
pace with our ever-changing environment.
    Declining budgets at all levels of Government have 
increased the need to leverage resources and facilitate cross-
jurisdictional coordination. We can no longer afford to operate 
in separate silos. We cannot divorce declining budgets from the 
structure that facilitates grant allocation.
    Today's dynamic threat environment requires a grant program 
that prioritizes investments based on risk while maintaining 
our collective ability to sustain prior investments that 
support national goals.
    Building a 21st-century National Preparedness System should 
also acknowledge that the Federal Government's response to 
disaster needs to be analyzed and streamlined to reduce 
redundancy, bureaucracy, and unneeded overhead and 
administrative expense. Together, let's analyze and eliminate 
redundancies and conflicts and get back to a streamlined and 
synchronized effort that serves and supports all parties.
    FEMA was originally created with the intent to serve and 
support communities impacted by disaster as the single 
coordinating body for Federal assistance. This is no longer the 
model that we have today. It is important to acknowledge that 
increasing the Nation's preparedness and response capabilities 
for the 21st century requires a strong National Preparedness 
System that facilitates the necessary collaboration, 
coordination, and structure for all critical stakeholders to 
achieve a common goal.
    If national systems are robust and implemented effectively, 
State, Tribal, county, and local governments can then make the 
tough decisions on how best to prioritize investment of 
critical grant dollars. Decisions regarding where to spend 
declining grant dollars are best made by those with firsthand 
knowledge of the threats facing their States and communities 
around the country.
    On behalf of the State of Arizona and NEMA members 
nationwide, we appreciate the continued support of this 
subcommittee as we work together to ensure that, as a Nation, 
we sustain a strong National Preparedness System.
    Thank you for the opportunity to provide testimony, and I 
look forward to the questions any of the subcommittee members 
may have.
    Mr. Barletta. Thank you for your testimony.
    Mr. Crossley, you may proceed.
    Mr. Crossley. Good morning, Chairman Barletta, Ranking 
Member Johnson, and members of the subcommittee. My name is 
Nick Crossley, and I am the director of the Hamilton County 
(Ohio) Emergency Management and Homeland Security Agency.
    I appear before you today in my dual roles as first vice 
president of the International Association of Emergency 
Managers and as a member of the National Association of 
Counties. I am here today as a representative of not just these 
organizations but the entire profession of emergency management 
practitioners--the profession dedicated to protecting America's 
local communities from all hazards and threats, natural and 
manmade.
    Chairman Barletta, in your home county of Luzerne, 
Pennsylvania, Emergency Management Director Lucille Morgan 
spends most of her waking hours preparing for floods along the 
Susquehanna River, a recurring problem she has helped to manage 
multiple times during her 24-year career with the county's 
emergency management agency.
    Congressman Johnson, in DeKalb County, Georgia, Emergency 
Management Director Sue Loeffler is tasked with preparing for 
disasters in close proximity to the busiest airport in the 
world and the headquarters of the Centers for Disease Control 
and Prevention. Sue works daily not just to help ensure the 
safe transport of various biohazards, including the Ebola 
virus, to and from CDC headquarters but also to prepare the 
community's response to accidental introduction of these lethal 
biohazards in the community.
    Across America, local emergency management agencies are at 
the center of our Nation's preparation, response, and recovery 
and strive to create a culture of preparedness that builds and 
sustains a disaster-resistant and disaster-resilient homeland.
    We are grateful to be part of today's conversation, because 
the mission we pursue daily is closely aligned with the goals 
of the National Preparedness System. In fact, over the last 
decade, the National Preparedness System and specifically its 
Emergency Management Performance Grant, or EMPG, have become 
pivotal pillars of support for efficient and effective local 
emergency management.
    Through EMPG, the Federal Government supports ongoing local 
efforts to develop, evaluate, implement, and administer 
emergency operations plans, trainings, and exercises in a 
manner that best suits the needs of each community and is 
conducive to interagency collaboration.
    Since Federal EMPG funds are always met with a 50/50 match 
from State and local recipients, the program is truly a 
partnership between local, State, and Federal governments. By 
fostering this partnership, EMPG not only helps us protect our 
own communities, it enables emergency management agencies to 
support and assist each other when disasters strain our 
individual capacities.
    EMPG also helps States coordinate the support and 
assistance among counties, both within and across State lines, 
ultimately creating a nationwide emergency management support 
structure that helps to save lives and lessen the impact of 
disasters.
    Over the last decade, this structure of support and 
assistance has strengthened our Nation's response to disaster 
in a measurable and documented manner. To cite one example, 
after Superstorm Sandy struck in 2012, Ramsey County, 
Minnesota, sent emergency management practitioners trained 
under EMPG to the State of New York to reinforce the efforts of 
overwhelmed emergency management agencies. Without EMPG, this 
sort of interstate coordination and assistance simply would not 
have happened, and the short- and long-term impact of the storm 
on New York and on our country would have been far greater.
    This is EMPG in action, increasing our Nation's resiliency 
to disaster by fostering a structure of emergency management 
coordination, support, and assistance that crosses local and 
State lines.
    A weakened EMPG program would not only result in greater 
damage to life, property, and infrastructure when disaster 
strikes, it would also substantially increase the need for 
post-disaster aid from the Federal Government. Because of this, 
cuts to EMPG are shortsighted from a budgetary standpoint and 
counterproductive to the goals of the National Preparedness 
System.
    In conclusion, the Emergency Management Performance Grant 
advances the goals of the National Preparedness System by 
fostering partnerships between emergency management 
practitioners at all levels of Government and in all corners of 
the country. When disasters strike our communities, these 
partnerships help to save lives, mitigate damage to property 
and infrastructure, and accelerate recovery.
    Thank you, Chairman Barletta and members of the 
subcommittee, for this opportunity to testify, and I look 
forward to your questions.
    Mr. Barletta. Thank you for your testimony.
    Mr. Lawless, you may begin.
    Mr. Lawless. Good morning. Thank you, Chairman Barletta, 
Ranking Member Johnson, for convening this important and timely 
hearing.
    My name is Joseph Lawless. I am the director of maritime 
security at the Massachusetts Port Authority. I am also the 
police chief at the port authority. And I am here today on 
behalf of the American Association of Port Authorities, where I 
am the chairman of the Security Committee.
    Since 9/11, port security remains a top priority for U.S. 
ports. Safe and secure seaport facilities are fundamental to 
protecting our borders and moving goods. Protecting the people 
and freight that move through seaports in surrounding 
communities is essential to keeping seaports safe and open for 
business. With 98 percent of overseas trade flowing through 
U.S. ports, a terrorist incident at a port could have a drastic 
impact on the U.S. economy.
    A key component of our Nation's preparedness system has 
been the Port Security Grant Program. Since 2002, over $3 
billion in port security grants have been appropriated. This is 
a vital funding source for port authorities and our partners to 
pay for unfunded mandates that have been put in place since 9/
11.
    The AAPA is very concerned about the rumored budget cuts to 
the Port Security Grant in the administration's budget that was 
released today. A 40-percent cut to the Port Security Grant 
Program would have a devastating and cascading impact on our 
security, supply chain, and safety of our communities.
    Under the SAFE Port Act, this program was authorized at 
$400 million. Unfortunately, the funding for this program has 
decreased, currently standing at a dangerously low level of 
$100 million. As costs of systems, maintenance, and equipment 
continue to rise and security threats continue to evolve, this 
level of funding will bring into question the sustainability of 
the protection levels we have worked so hard to build over the 
last 15 years.
    Port Security Grant funds have helped port facilities and 
port areas to strengthen facility security and work in 
partnership with other agencies to enhance the security of the 
region. Port Security Grant funding has been used to procure 
equipment such as vessels, vehicles; install detection systems 
such as cameras and sensors; and provide equipment and 
maintenance for systems recently installed. It also provides 
funding for 24-by-7 response and patrols.
    For example, at my port, the Port of Boston, we used Port 
Security Grant funds to bolster our critical infrastructure by 
obtaining and installing radar intrusion detection systems, 
cameras, biometric access control and identification systems, 
active-shooter detection systems, and cybersecurity assessment 
tools. We even enhanced our emergency management and response 
capabilities by equipping our bomb squads with explosive 
ordnance disposal robots, advanced x-ray systems, bomb 
containment vessels, and preventative radiological and nuclear 
detection devices.
    As chairman of the AAPA Security Committee, I know that 
ports around the country have also utilized these funds to 
confront the multitude of physical and cybersecurity 
vulnerabilities that challenge the vitality of the maritime 
transportation network.
    At the Port of Los Angeles, for example, Port Security 
Grant funding has gone to installing over 400 cameras and 250 
access control panels, including an infrared camera capable of 
viewing objects 3 miles from the port of entry; building a 
cybersecurity operation center to monitor and respond to over 
550,000 monthly internet attacks on the port's business 
network.
    In Florida, the Tampa Port Authority have used Port 
Security Grants to purchase an innovative floating barrier 
system that was designed and manufactured in Florida. The 
system is designed to prevent a waterborne attack by a small 
vessel carrying an improvised explosive device. This system can 
be deployed in less than an hour by port security and law 
enforcement personnel, as compared to the traditional systems 
deployed by contractors; they take hours or days to set up.
    Channels under the jurisdiction of the port authority are 
used to deliver over 43 percent of all motor vehicle fuel used 
by Florida citizens and visitors. This investment has the 
potential to protect high-value targets against evolving 
threats of improvised waterborne explosives carried by small 
vessels.
    Security challenges are never stagnant. Cybersecurity is a 
prime example of an emerging security threat since 9/11. Ports 
are working with their stakeholders in addressing this very 
complex problem. And the Port Security Grant Program remains a 
vital component in assisting ports in addressing cybersecurity 
challenges by providing resources for cyber assessments.
    If Congress were to make tweaks to the FEMA Port Security 
Grant Program, as has been discussed by other committees of 
jurisdiction, we would recommend the following: Fund and 
authorize the Port Security Grant Program at the $400 million 
level or maintain the current $100 million level; increase the 
$100 million project limit to a $500 million per-project limit.
    And increasing the limit on cost eligible for funding would 
address the cost of acquisition and installation as well as the 
sustainment and maintenance of security equipment and systems 
that have increased since the authorization of 2005. This would 
address most of the multiyear funding issues that have been 
raised in the past as well.
    A 36-month grant performance period is the minimum needed 
for ports to successfully design, implement, and test projects 
to ensure maximum improvements to port security and operational 
capability.
    We encourage Congress to continue to emphasize a risk-based 
funding strategy for Port Security Grants. The Port Security 
Grant Program funding should be focused on the highest risk 
ports in the Nation in terms of consequence, vulnerability, and 
economic impact.
    Reduce or eliminate the 25-percent cost match required for 
Government entities, such as port authorities, police 
departments, and fire agencies.
    And keep the Port Security Grant Program where it is. Do 
not block-grant or consolidate this program. FEMA has done an 
excellent job in administering this program.
    Port Security Grants are managed quite differently than 
other homeland security grants. Priorities are set locally 
based on risk and vulnerability at the local port. Other 
homeland security grants have a list of core capabilities which 
all grantees try to attain. This capability list is based more 
on a movable and shared asset rather than set facilities. There 
is no such list of core capabilities for Port Security Grants, 
and the ones developed for other grant programs were not 
developed with ports in mind.
    Additionally, ports have certain Federal mandates, such as 
the transportation worker ID card, or the TWIC program, and the 
recently released TWIC reader rule, which goes into effect this 
coming year.
    Additionally, I would be remiss if I did not state that 
funding Customs and Border Protection and ensuring that ports 
are staffed with a sufficient level of Customs and Border 
Protection officers is critical for a safe and secure supply 
chain. CBP officers augment everything that the Port Security 
Grant program does.
    In fiscal year 2015, when Customs and Border Protection was 
funded to hire 2,000 staff, fewer than 20 officers were 
assigned to the seaports. We cannot let this disproportionate 
approach to security continue. Our Nation's seaports handle 
more than 11 million maritime containers and over 11 million 
international passengers each year.
    Finally, we have made a remarkable, well-prepared industry 
when it comes to security. As a security professional, we value 
the partnerships. We leverage funding and keep security as a 
priority. The FEMA Port Security Grant Program has been vital 
in keeping our ports and supply chains and communities safe.
    I want to thank you for giving me this opportunity to 
testify today, and I look forward to any questions that you may 
have.
    Mr. Barletta. Thank you for your testimony.
    Mr. Martynuska, you can begin.
    Mr. Martynuska. Thank you, Chairman Barletta, Ranking 
Member Johnson, and members of the subcommittee.
    Before I start my comments, Chairman Barletta, I want to 
thank you for your kind words of condolences for my brother 
Denny DeVoe, and I will make sure to pass those along to all of 
his brothers in Harrisburg. Thank you.
    My name is Art Martynuska. I am the president of the 
Pennsylvania Professional Fire Fighters Association. I 
appreciate the opportunity to appear before you today on behalf 
of the International Association of Fire Fighters, representing 
over 300,000 firefighters and emergency medical personnel.
    Today's fire service has evolved from a municipal force 
whose primary duty was to extinguish local fires to a highly 
integrated national system that responds to a wide range of 
local emergencies and national disasters. When the Nation faces 
any type of emergency, it is local firefighters who respond. It 
is from this unique perspective that we view the Federal 
Government's preparedness efforts.
    The horrific events of September 11, 2001, shook our Nation 
to the core, and Congress responded appropriately by creating 
the Department of Homeland Security and establishing new 
programs to protect the Nation.
    These laws fundamentally altered the way our Nation views 
emergency response and preparedness.
    Before 9/11, the Federal role in emergency management was 
largely confined to recovery after a major disaster. September 
11th forced us to face the deficiencies of this outmoded view 
and create a new paradigm among Federal, State, and local 
governments to better protect our communities. Under this 
partnership, local emergency responders came to understand that 
their job is not merely protecting communities from local 
incidents but to play an integral role in protecting all 
Americans against terrorist attacks and other major disasters.
    The Federal Government's role in this new partnership is 
twofold. First, it must be able to marshal all available 
resources, including the assets offered by the Nation's fire 
services, to respond to these events. And, second, to fulfill 
this obligation, the Federal Government must be willing to 
ensure that local emergency response agencies have the 
resources they need to successfully execute their missions.
    To successfully mitigate a broad palette of operational 
responsibilities, the fire service must maintain a continuous 
state of preparedness. Unfortunately, firefighters are too 
often expected to work with outdated equipment, minimal 
training, and insufficient personnel.
    The SAFER and Assistance to Firefighters Grant programs 
were created by Congress to help address these needs and keep 
firefighters and fire departments in an ever-ready state of 
preparedness. Providing funds to communities nationwide, SAFER 
and Assistance to Firefighters Grant programs have proven to be 
highly effective.
    For example, the Philadelphia Fire Department has struggled 
for years with a depleted fire force. In 2015, I am pleased to 
say that the Philadelphia Fire Department received a SAFER 
Grant for $22.6 million, allowing the department to add 160 
firefighters to the depleted rolls, enhancing safety and 
significantly reducing risk.
    Despite the clear improvements in preparedness produced by 
these grants, there remains a strong need for additional 
funding. According to the National Fire Protection Association, 
shortages in personnel, equipment, and training persist in many 
fire departments. Although SAFER and Assistance to Firefighters 
Grant programs have allowed fire departments to make headway 
against longstanding shortages, many departments are swimming 
against a rising tide.
    In addition to SAFER and Assistance to Firefighters Grant 
programs, we believe the homeland security grants, particularly 
the Urban Areas Security Initiative and the State Homeland 
Security Grant Program, have benefited the Nation's 
preparedness.
    Although these programs serve an important public safety 
need, shrinking budgets limit their effectiveness. We are 
concerned with this trend and warn that, if continued, it will 
have a significant impact on preparedness.
    Additionally, the previous administration proposed 
consolidating homeland security grants. We rejected this 
proposal, as did Congress. Given the limited Federal funding 
afforded to the grants, merging district homeland security 
priorities into a single block grant could cause such 
priorities to go unserved. We hope this proposal is not 
resurrected under the current administration and urge it be 
rejected again if it is.
    As you know, the National Urban Search and Rescue Response 
System provides a significant national resource for search and 
rescue assistance in the wake of a major disaster. USAR teams 
have been deployed to numerous disasters in the United States, 
including Superstorm Sandy, Hurricane Katrina, and, of course, 
the 9/11 attacks.
    I know this subcommittee values the significant work of our 
Nation's USAR teams, and I would be remiss if I did not thank 
you for your work last year to pass the National Urban Search 
and Rescue Response System Act. This legislation is a 
significant achievement by this subcommittee, and we appreciate 
your tireless efforts that resulted in this bill becoming law.
    Unfortunately, the USAR system is desperately underfunded 
and becomes more so each year. In 2006, FEMA estimated the 
annual recurring cost for each task force to be $1.7 million. 
Today, in many jurisdictions, the cost exceeds $2 million. For 
fiscal year 2016, Congress only appropriated a portion of the 
necessary cost for all 28 teams, leaving local sponsoring 
agencies to pick up the remainder of the tab.
    Unfortunately, tight local budgets have left many local 
sponsoring agencies unable to subsidize critical USAR 
functions, significantly straining task forces' readiness and 
capabilities. In fact, some teams have been so underfunded that 
they have been unable to respond to emergencies when called 
upon.
    Additionally, when local communities are forced to assume 
an ever-increasing share of costs, funds are inevitably 
diverted from local emergency service budgets. Thus, a failure 
to fund an inherently Federal function actually detracts from 
local preparedness.
    Adequately funding the Urban Search and Rescue Response 
System would significantly improve our Nation's readiness. A 
small investment would yield significant returns in ensuring 
that teams are prepared to conduct critical, lifesaving search 
and rescue operations in the wake of a disaster.
    These programs allow all the Federal Government to enhance 
preparedness at both the local and national level. That is why 
we are concerned with reports that funding for homeland 
security grants and other priorities within DHS may be cut 
under the new administration's budget. As the first line of 
defense in protecting our homeland, the Federal Government has 
an inherent responsibility to help ensure local fire 
departments can effectively protect the public safety. Cutting 
these essential programs would surely result in critical gaps 
in the firefighters' ability to respond to emergencies.
    I appreciate the opportunity to share with you our views on 
the National Preparedness System. We have made significant 
progress since 9/11 to enhance readiness and capabilities. We 
must continue to build upon this framework and resist 
suggestions to cut or underfund programs that are essential to 
our national security and well-being.
    Again, thank you for the subcommittee's opportunity to have 
me testify here today, and I will be happy to answer any 
questions.
    Mr. Barletta. Thank you, Mr. Martynuska.
    Mr. Roberts.
    If I could remind the panel to try to stay within the 5 
minutes. We have a large panel and some questions we want to 
get to.
    But thank you very much.
    Mr. Roberts. Yes, sir, Mr. Chairman.
    Good morning, Chairman Barletta and Ranking Member Johnson 
and distinguished members of the committee. Thank you for the 
opportunity to share my agency's views on the importance of 
FEMA preparedness grants in securing Las Vegas.
    My name is Tom Roberts. I am an assistant sheriff with the 
Las Vegas Metropolitan Police Department. I currently oversee 
the Law Enforcement Investigations and Support Group and have 
been in law enforcement for over 30 years.
    Metro is the largest law enforcement agency in the State of 
Nevada, with over 3,000 sworn members, and we serve a 
population of 2 million permanent residents and 42 million 
visitors each year. It is one of the largest police agencies in 
the United States. We are also a member of two important 
professional law enforcement organizations: the Major County 
Sheriffs of America and the Major Cities Chiefs Association.
    With the ever-changing threat environment, the capabilities 
built in part through UASI and State homeland funds have become 
critical in our preparedness for our efforts to prevent threats 
to public safety. These capabilities are consistently supported 
by our local governments and our State. And the Federal 
contribution to those efforts is small in comparison but is 
essential to maintain the level of vigilance against threats.
    One of our major accomplishments made possible by the State 
homeland UASI grants is the development and sustainment of the 
Southern Nevada Counter-Terrorism Center, our State-designated 
fusion center.
    And, Chairman Barletta, I would like to thank you for your 
support for fusion centers across the country, to include ours.
    Metro does not source any grant funding for full-time 
employee positions or overtime reimbursement. Staff assigned to 
the fusion center are contributed by each partner agency at 
their own expense.
    The mission of the SNCTC is to combat crime and terrorism 
in Nevada by ensuring communication and coordination among 
Federal, State, local, Tribal, international, and private-
sector agencies. The fusion center links homeland security 
stakeholders in southern Nevada through information sharing and 
analysis.
    Within the SNCTC are several successful programs supported 
in part by investments of both Homeland Security and UASI 
funding, whether technology, equipment, or training.
    The SNCTC participates in a nationwide suspicious activity 
reporting, SAR, initiative, which is the cornerstone of the 
National Network of Fusion Centers. The initiative provides law 
enforcement at all levels with the ability to detect and 
prevent terrorism and other criminal activity while strictly 
abiding by privacy, civil liberties, and civil rights 
protections.
    The counterterrorism section is comprised of law 
enforcement detectives throughout the Las Vegas Valley. It is a 
true actionable arm of the fusion center. They are a 24/7 
operation that runs 7 days a week, day or night, to ensure that 
nothing is missed and that our community remains ever vigilant 
in the fight against terrorism.
    We use grant dollars to support Silver Shield, which is 
Nevada's critical infrastructure protection program and 
implements the National Infrastructure Protection Plan, NIPP, 
in our area. Having initially formed with a mandate to conduct 
physical security assessments in critical infrastructure and 
key resource sites, the program has evolved to identify and 
prioritize and assess risk regarding infrastructure, assets, 
systems, networks, and functions that are critical to the 
State's economic security as well as public health and safety.
    The UASI program, while critical and effective, needs to be 
strengthened to keep pace with the current threat environment 
and to fulfill its original intent. In any given year, high-
risk and high-consequence areas like Las Vegas are left out of 
UASI grant allocation. There needs to be a reevaluation of the 
MSA risk formula to accurately reflect a true count of approved 
critical infrastructure locations within the MSA by taking into 
consideration the clustering of critical infrastructure and key 
resources.
    Special events need to be factored into the calculation on 
how cities are targeted. No one does special events like Las 
Vegas, and taken DHS special event assessment rating listings 
only increase the true account of the risk to the MSA risk 
profile.
    We would like to see FEMA provide clear guidance as to what 
contributes to the threat category within the MSA process 
instead of the existing process, which in some cases does not 
appear to be accountable.
    There remains a strong need for law enforcement terrorism 
prevention activities, LETPA, a requirement that is current law 
under provisions. Twenty-five percent of all UASI and State 
Homeland Security Grant funds that are received by a State must 
be used for prevention activities. If this requirement was 
removed or otherwise watered down, there would be zero 
dedicated Federal support for terrorism prevention activities, 
which is a unique role in law enforcement. It would 
significantly reduce the amount of funding available to support 
our fusion center and true counterterrorism efforts.
    On a related note, we believe there should be more formal 
local law enforcement input into FEMA's grant guidance and 
prioritization process to ensure transparency in its policy 
directives, grant guidance, and risk formulas.
    I want to thank the committee and all the staff for your 
hard work and willingness to engage local law enforcement. As 
you can see, we have built very important capabilities with 
these programs, and we look forward to working with you to 
protect them.
    I look forward to any of your questions. Thank you.
    Mr. Barletta. Thank you, Mr. Roberts, for your testimony.
    Mr. Daroff, you may begin.
    Mr. Daroff. Good morning, Chairman Barletta, Ranking Member 
Johnson, and members of the committee. Thank you for inviting 
me to participate in today's hearing. It is an honor to be here 
today.
    My name is William Daroff. I am the senior vice president 
for public policy and director of the Washington office of the 
Jewish Federations of North America. I take note of my 
colleague Robert Goldberg and my wife, Heidi, who are here with 
me today.
    JFNA and our 148 Jewish federations across the country are 
collectively among the top 10 charities in the Nation. Since 
September 11, nonprofits in general and Jewish communal 
institutions in particular, have been targeted by international 
terrorist organizations and homegrown violent extremists from 
across the ideological spectrum. As a consequence, Jewish 
communal security, and that of the nonprofit sector more 
generally, has great relevance to the National Preparedness 
System.
    In August of 2016, the National Counterterrorism Center 
reported that homegrown violent extremists are increasingly 
favoring softer civilian targets, including Jewish houses of 
worship, because they are perceived to have lower levels of 
security and because they are being encouraged directly by 
overseas violent extremists such as ISIL.
    In February, the Southern Poverty Law Center reported that 
the number of hate groups in the United States rose in 2016 
from 892 to 917 and that the majority of these groups are anti-
Semitic. Since January 1st, at least 116 Jewish communal 
institutions, including Jewish community centers, Jewish day 
schools, places of worship, and others, have received more than 
160 bomb threats in 39 States. Again, that is just since 
January 1st of this year. And I would note that those threats 
have occurred in each of the States that are represented by the 
members of the committee who are present here today.
    In fiscal year 2005, in response to terrorist and extremist 
threats, Congress with bipartisan support created the Nonprofit 
Security Grant Program. The program supports the acquisition 
and installation of physical target hardening investments to 
protect against threats identified as of particular concern to 
at-risk nonprofit institutions, including protection against 
explosive devices, arson, active shooters, assassination, 
kidnapping, chemical and biological agents, and cyber attacks.
    Prior to the establishment of the NSGP program, there was 
no committed, coordinated, uniform, centralized program that 
responded to, promoted, or ensured that at-risk nonprofit 
institutions participated in and benefited from meaningful 
Federal, State, and local security efforts. The NSGP program 
changed this.
    The NSGP program awards protect against threats and 
mitigate the effects of attacks, including the installation of 
access controls, barriers, blast-proofing, monitoring and 
surveillance capabilities, and cybersecurity enhancements. 
These are similar in nature to the physical security 
enhancements acquired and installed at Federal Government 
buildings in the post-9/11 environment, such as those 
protecting the Capitol and this very building we are in this 
morning.
    The program is competitive and risk-based. It involves 
State and local review and prioritization, followed by Federal 
review and final determination by DHS. The program applies the 
same geographic limitations as FEMA's Urban Areas Security 
Initiative, which, as of fiscal year 2016, included 29 urban 
areas in 20 specified States and the District of Columbia.
    The Nonprofit Security Grant Program has become an 
essential component of the preparedness grant programs at FEMA. 
It maintains bipartisan support in both the House and the 
Senate and is thought of as an efficient and effective means to 
accomplish a great deal of security enhancement and 
preparedness using modest resources. With a continuing and 
growing record of threats, attempted attacks, and deadly 
occurrences targeting Jewish communal institutions, as well as 
to other vulnerable populations within the nonprofit sector, we 
believe there is ample justification for Congress to maintain 
the Nonprofit Security Grant Program as a singular, standalone 
initiative as a matter of national security preparedness. 
Congress should consider ways to strengthen the program, not to 
dismantle it.
    Conversely, we strongly believe that any effort to supplant 
the NSGP program as part of the consolidation of larger 
preparedness grant programs would disenfranchise at-risk 
nonprofit stakeholders, who could not be expected to 
meaningfully participate in or effectively compete with larger, 
more formidable and connected stakeholders for resources in an 
integrated, competitive process. Such a move would dilute the 
connectivity and continuity between local nonprofit 
stakeholders and the State Administrative Agencies, and between 
FEMA and national nonprofit stakeholders, such as JFNA.
    Rather, in addition to maintaining the integrity of the 
NSGP program in its current form, we know that the threats to 
our communal institutions have expanded geographically to 
smaller and more diffuse communities located outside of the 
enumerated UASI areas. As such, we believe there is need for 
Congress to take immediate action to further strengthen the 
integration of nonprofit preparedness within State and local 
preparedness activities. To this end, we would welcome the 
subcommittee exploring other opportunities to build nonprofit 
security capabilities through the National Preparedness System.
    Thank you for the opportunity to testify today on the 
importance of the Nonprofit Security Grant Program as a 
standalone initiative, and the imperative to strengthen the 
ability and increase opportunities for further integration of 
nonprofit preparedness within the National Preparedness System. 
I look forward to the opportunity to answer questions.
    Mr. Barletta. Thank you for your testimony.
    Mr. Feinstein, you may proceed.
    Mr. Feinstein. Thank you, Chairman Barletta, Ranking Member 
Johnson, and members of the subcommittee, for the opportunity 
to testify today regarding FEMA's Nonprofit Security Grant 
Program. My name is Michael Feinstein, and I am the president 
and chief executive office of the Bender JCC located in 
Rockville, Maryland.
    The Bender JCC is a warm, inclusive, diverse, and thriving 
community that welcomes everyone to participate in our 
programs: people of all backgrounds, faiths, ethnicities, 
abilities, and sexual orientations. We serve a cross section of 
the area's population, from young mothers with infants to 
seniors who are 100 years old. Tens of thousands of people 
participate in our cultural, educational, recreational, social, 
and safety net programs annually.
    Daily, there are over 400 children in our preschool, 
afterschool, and enrichment programs. And in the summer, over 
500 children and 250 counselors participate in our inclusive 
day camp with about 100 of these children having some type of 
disability.
    We provide arts and culture programs, lectures, fitness and 
aquatics classes, and Jewish festivals and holiday celebrations 
to the broad community. We help seniors age in place through a 
hot lunch and social program and a community-based Parkinson's 
wellness initiative in partnership with Georgetown University 
Medical Center. And we serve as a resource to the entire 
community by providing meeting rooms and theater space to 
hundreds of nonprofits in need of free or inexpensive program 
and performance space, and by serving as a public polling place 
for elections.
    As a symbolic institution in the national capital region 
representing the highly recognized ``JCC'' brand and serving 
the broad community, the Bender JCC faces a range of security 
threats. We are directly affected by any and all incitement to 
violence against Jews and anti-Semitic rhetoric and actions 
locally, nationally, and abroad.
    Immediately after 9/11, a comprehensive threat assessment 
and security analysis identified a number of security 
vulnerabilities, deemed the JCC to be a high-visibility profile 
target, and assessed the threat to our facility as high. This 
assessment became a reality several years ago when law 
enforcement alerted us to a credible threat against our 
institution and other JCCs in our region. Following the 
shooting at the Kansas City JCC almost 3 years ago, we 
undertook another security review, which identified additional 
operational security vulnerabilities.
    Today we face a new threat of terrorism against our 
institution as a result of the recent spate of bomb threats and 
other incidents against JCCs and other Jewish institutions 
across the country, including two that have targeted our 
facility since January. These events forced the evacuation and 
sweeps of our building, disrupting our operations. As a result, 
we are again forced to further evaluate what capital 
investments may be required to enhance our security against 
emerging threats and expect that we will need to seek further 
NSGP resources in the next available grant cycle.
    FEMA's Nonprofit Security Grant Program has provided 
critical security resources to the Bender JCC. Based on the 
recommendations of multiple security analyses, the NSGP 
resources have enabled us to create layers of security through 
deterrence and hardening of our facility, including investments 
in fencing, gates, bollards, security cameras, bomb-proofing, 
and an integrated emergency communications system. We could not 
have afforded all of these security enhancements on our own. 
And we have used the grant program to leverage other grant and 
private funding.
    The Bender JCC has had an extremely positive experience 
with the National Capital Region State Administrative Agency. 
They announce and roll out the program in a timely fashion, 
provide helpful briefings that explain the grant requirements 
and procedures in detail, and they are the ``go-to'' people 
with any questions or clarification needed during the period of 
performance. They have been great stewards of the program, 
providing structure and guidance to ensure the application 
process, oversight and compliance requirements, and project 
close-out procedures were in order and satisfied.
    With respect to considerations for consolidation, we would 
be extremely concerned if the program were to be decentralized 
with nonprofits competing with multiple State and local law 
enforcement, firefighters, port and transit security, and other 
emergency responders for FEMA preparedness grants. We believe 
that we would find ourselves at a severe competitive 
disadvantage against these larger entities and would lose the 
level of attention and cooperation we currently have with the 
State Administrative Agency that has made our experience with 
the NSGP program successful.
    Thank you for the opportunity to testify today, and I 
welcome any questions you may have.
    Mr. Barletta. Thank you for your testimony.
    I will now begin the first round the questions limited to 5 
minutes for each Member. If there are any additional questions 
following the first round, we will have additional rounds of 
questions, as needed.
    Mr. Daroff and Mr. Feinstein, thank you so much for 
agreeing to be a witness at today's hearing. I personally asked 
for you two to participate because the threats we are seeing at 
Jewish community centers across the country, like the Bender 
Community Center here in Washington, are outrageous and 
unacceptable. This is domestic terrorism, and the full force of 
the law needs to be brought against the perpetrators.
    In addition to Federal, State, and local law enforcement 
support, I know some of the community centers receive 
assistance from the Nonprofit Security Grant Program. Are these 
funds helpful in combating these threats? And what else can be 
done because I know that these threats are real?
    Mr. Feinstein. First, thank you for your statement of 
support, Mr. Chairman. These funds have been critical for us. 
We raise money every year for our own security needs, both for 
capital and operating expenses, yet we could not raise enough 
money on our own, and these grants make a tremendous difference 
for our JCC and other JCCs.
    You can imagine, currently, with over 100 JCCs receiving 
bomb threats from across the country since January, my 
colleagues and I come into work every single day wondering 
whether we will be evacuating infants, toddlers, and seniors as 
a result of these threats. I would expect that many of my 
colleagues would welcome the opportunity to participate in this 
program, through expanding eligibility while maintaining the 
integrity of the program through increased resources.
    Mr. Daroff. Mr. Chairman, thank you as well.
    I would just add that I received an alert last evening that 
three more JCCs have received bomb threats. One thing Congress 
can look at is structural ways in which smaller communities 
located outside of the UASI program could benefit from the 
Nonprofit Security Grant Program. As my colleague Michael has 
said, he is here to build Jewish community, to help us work out 
and build a stronger self and stronger bodies, not to be a 
security director. And so the assistance that the Federal 
Government has been able to provide, through NSGP as well as 
local law enforcement, has been essential. Expanding the 
program in a way that doesn't diminish the resources would be 
at the top of our list of things that Congress could do to 
address the particular threats of the nonprofit sector.
    Mr. Barletta. Thank you.
    As I said in my opening statement, fire grants have been 
essential to numerous fire departments in my district back 
home.
    Mr. Martynuska, can you highlight how the Assistance to 
Firefighter grants can be particularly helpful to smaller, 
rural departments and how those departments can use these 
Federal funds to build upon and leverage local support?
    Mr. Martynuska. Yes, thank you, Mr. Chairman.
    The basic tenets of fire protection are supported by these 
grants. In some of our smaller rural departments, if these 
grants weren't available, these departments would go out of 
existence. So their existence is dependent with just the basic 
needs of turnout gear, self-contained breathing apparatus, fire 
engines. Just the effort to survive, these grants, if they 
would be diminished, would cause them to go out of business.
    Mr. Barletta. Thank you.
    Mr. Crossley, as you know, an all-hazards plan starts with 
a threat assessment. When it comes to cybersecurity and the 
threat posed to the electrical grid, are you receiving clear 
guidance from FEMA and DHS as to what you should be planning 
for? Unfortunately, in talking with local governments, my sense 
is that they are not being told what to plan for. Should you be 
planning for the power to be out for 3 days, 3 weeks, 3 months? 
What should our communities be prepared for if the grid goes 
down for a significant period of time, leaving hospitals, water 
and sewer systems, and other infrastructure without power?
    Mr. Crossley. First of all, we are planning for those 
things. So we do our own threat assessment. We do our own 
hazard assessment with guidance from the State, from FEMA, and 
we identify both cybersecurity, electrical failure. I just 
participated in a--FEMA has run regional power outage 
exercises. So I was actually just at Ohio EMA participating in 
one of those. And I think that it is really threefold. So we 
need to talk to citizens, which we do as much as possible 
without overwhelming them. Then we need to talk to our partners 
in the local community and the region to say, depending on the 
size and scope of the outage, how would we get resources in? We 
work with, in our case, Duke Energy on, how is the system being 
protected? How are you ensuring that you can get the crews in 
here? And then we work through the State and through FEMA and 
the Emergency Management Assistance Compact to ensure that, 
provided the entire country is not without power, that we know 
how we are going to get resources from the other States. So you 
are taking it from the citizen preparedness to ensuring that 
whatever system we develop in Hamilton County is coordinated 
regionally. We are in a tristate area. So we talk to Kentucky, 
and we talk to Indiana as well. And then, of course, we are 
working through Ohio EMA to work with FEMA. So I think that, 
again, the benefit of the National Preparedness System, as I 
stated, is that it is not just where the boots are on the 
ground at the local level--all disasters are local--but that we 
need to work with them regionally, with our State, and through 
our State with FEMA and the neighboring States so that we can 
bring resources in. And these programs help ensure that we have 
a National Response System. So we identify the hazard. We 
identify how we are going to deal with the mass-care issues, 
with the feeding issues, with the sheltering issues. And then 
we make sure that, while we may not be able to purchase and 
warehouse everything in Hamilton County, that we know who we 
can call, and we keep people, and we continue to test and 
exercise those systems. So we are actually following former 
Administrator Fugate's mantra, which was: Don't plan for what 
you think you can handle; plan for what you think you can't 
handle and start talking to people about how you would handle 
that.
    Mr. Barletta. Well, putting my mayor's hat back on here for 
a moment, and I still believe--my experience has been, in 
talking with local officials, especially smaller cities, that 
we need to do a better job in communicating with them because 
they are going to be carrying the football when the light goes 
out and the power goes down. No one is coming to help when we 
have a massive outage. It is the local government that is going 
to be responsible, and loss of life will happen in the first 
24, 48, 72 hours. I still don't get a sense that that 
communication--many of these mayors, the first thing I ask is, 
well, if this happens, how long are you are going to need to be 
prepared for? They can't answer. So, if you don't know how long 
you need to be prepared for, you can't be prepared.
    Mr. Crossley. So we always use the 3-day mantra, to be 
prepared for 3 days. Our challenge--and this is a challenge not 
just in Ohio but across the country. For example, Hamilton 
County has 49 individual jurisdictions, all at various sizes 
and capabilities, everything from the city of Cincinnati, which 
is a large city, to cities of a few hundred people. So you are 
right. So a lot of mayors are not necessarily aware. So we 
actually work across the--it is an ongoing educational process. 
So you are always going to run across elected and appointed 
officials who they either depend on somebody else to know how 
that is going to happen or they are not as educated. And so you 
ask, what is the benefit of the grants? The benefit of the 
grants, for example, with EMPG is, with the 50/50 hard dollar 
match, it provides skin in the game from the local government, 
but also that we are out there on a daily basis knocking on 
these doors. But when you are at the local level and you have 
limited staff capacity, you are hitting one and two at a time. 
So I think that you are right in that a lot of them don't know 
what they are going do, and also the buck does stop with them. 
So I have 49 individual mayors or township trustee presidents 
or whatever it is. So, little by little, we are knocking on 
those doors, and we are talking about those issues, albeit in a 
manageable manner. And then, at the county level and working 
with the State, we focus on the catastrophic issues because, to 
be honest with you, when you start talking catastrophic to a 
small community, it can become quite overwhelming, which is why 
we need that system that can expand and contract as needed.
    Mr. Barletta. Thank you.
    The Chair now recognizes the ranking member of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I have been at several other events this morning. I regret 
I wasn't here for the opening statements. I will make a brief 
one, and then I have a quick question.
    I have looked at the President's proposal and the so-called 
skinny budget, and for disaster, it is a disaster. And I guess 
down at the White House, they have either got amnesia or no 
sense of history, where we are going to go back to the, ``You 
are doing a great job, Brownie,'' days, as if we don't remember 
what it is like when we aren't prepared. To cut 25 percent of 
the budget for preparedness grants, to cut the pre-disaster 
mitigation funds, that is whistling through the graveyard. Not 
going to be any more floods, tornadoes, hurricanes, 
earthquakes, volcanic eruptions. Don't worry about it. And, by 
the way, don't call the Federal Government because we won't be 
there. And, oh, yeah, your local first responders won't have 
been trained, and they won't have the equipment they need. 
Otherwise, it is a really great idea.
    And this is all so we can build a Maginot line, a wall so-
called or fence now, on the Mexican border. You know, I was in 
Hong Kong when we still had Communist China and the Brits 
controlled Hong Kong. They had double fencing 20 feet tall. 
They used lethal force. It had concertina wire, barbed wire. 
And you could pay a smuggler 1,000 bucks, and they would get 
you over it in 90 seconds with a ladder contraption they 
invented. And people came over regularly. But we are going to 
build a wall or a fence through the Superstition Mountains in 
Arizona. And don't worry. No one will throw drugs over it. 
Nobody will sneak through it, under it, around it. It is 
absolutely nuts. But we are going to cut real preparedness to 
do this.
    So just one question, since we have a group of people here, 
I just ask this: Do you think it makes sense to cut the 
multihazard mitigation program when we have the Congressional 
Budget Office and the Multihazard Mitigation Council saying we 
save 3 to 4 bucks post-disaster for every dollar we invest? And 
if you don't think that is an accurate figure and we should cut 
that budget, let me know. So does anybody want to advocate for 
cutting that budget and say it will make us more efficient?
    Ms. Smith-Reeve.
    Ms. Smith-Reeve. No. I would not cut the budget on 
mitigation. Actually, if we are really going to bend this 
Federal runaway cost curve on disasters, we really need to move 
away from the current reactive model to a more proactive model, 
and that means shifting dollars to pre-disaster mitigation, our 
ability to buy down risk, and infuse resiliency into the 
communities at the local level. That is what is going to 
support and sustain local jurisdictions more than the reactive 
model that we have currently in place. So, to your point, 
between fiscal year 2011 and 2014, the Federal Government 
allocated roughly $222 million for pre-disaster mitigation 
compared to $3.2 billion for post-disaster mitigation, which is 
a ratio of roughly 1 to 14. In the aftermath of hurricanes and 
other large-scale events, you can see, based on the photographs 
that we see in the media, where good mitigation pre-disaster 
has been applied because you have structures that have 
withstood the forces that they were up against. So that alone 
is a clear demonstration of why we need to buy down risk within 
those high-hazard areas of our community and repurpose some of 
those funds. So, if it is moving homes out of a flood plain to 
higher ground, and repurposing that space and give it back to 
the community in a different way through park systems or 
whatever the case may be. That is an example of one thing that 
Arizona has done where we bought out a community and moved them 
to higher ground and gave that space back for the community to 
use. They got to decide on what that looked like for the future 
for their community. So I personally would be encouraging--and 
I know other State directors also echo this comment--that, in 
order for us to buy down risk, we do need to have more 
mitigation dollars prior to an event.
    Mr. DeFazio. Great. Excellent. I only have 20 seconds left. 
Does anybody disagree? OK. No one disagreed, let the record 
reflect.
    Thank you, Mr. Chairman. I appreciate it.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. Bost for 5 minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    And thank you for the opportunity to serve on this 
committee. It is kind of a committee that is near and dear to 
my heart.
    Mr. Martynuska, he and I have something in common; we are 
both--I am one of the only Members of the Congress who was a 
professional firefighter. And so that means that we get to do 
those things that our mother would prefer that we didn't do, 
which is running into buildings other people are running out 
of, being around fire, spraying water, getting dirty, and then 
people like seeing us there. It was a pretty neat profession. 
Thank you for your service in that.
    Let me ask, if I can, Mr. Lawless, as we are moving 
forward, what would you say are the most significant 
accomplishments for preparedness that have been able to occur 
with leveraging Federal dollars since we started these 
projects?
    Mr. Lawless. Thank you, Mr. Bost.
    Our most impressive accomplishment in preparedness has 
been, around the country, the creation of safe, secure, and 
resilient maritime facilities that meet all of the Federal 
security requirements facing port authorities. We have done 
that by leveraging the use of port security grants. We have 
created a layered system of security that begins with fences, 
cameras, identification systems, access control, radiological 
nuclear detection devices. We have done that. We have trained 
all of our port workers in security awareness. All of our--we 
do regular drills with all of our other agencies: our fire 
departments, our EMS service, our police departments, our 
emergency management agencies. A lot of that has come from 
funding from the Port Security Grant Program. So I would say 
the overall impact of the Port Security Grant Program has been 
to really create the safe and secure and resilient maritime 
facilities that will support the maritime transportation 
network, which is vital to our U.S. economy.
    Mr. Bost. So now that we have it in place, what type of 
investment or how do we wisely invest so that we can maintain 
that? What type of breakdowns do you see? What concerns might 
be out there?
    Mr. Lawless. Well, the challenge moving forward I see is, 
how do we maintain our current levels of preparedness? How do 
we maintain and improve that layered system of security? And I 
think the Port Security Grant Program is vital to that. A lot 
of assistance that we have purchased, a lot of the training 
that we have done now has to be recycled. A lot of the systems 
that we have bought have come to the end of use for their 
usability. And in order to maintain that level of security, we 
have to either replace those or upgrade those systems. Again, 
as the workforce changes within the port community and more 
stakeholders come in--you know, firefighters retire, and new 
firefighters come in; a police officer retires, and a new 
police officer comes in; new threats evolve, whether they be 
physical threats or cybersecurity threats--we need the funds to 
get that workforce ready, to get our equipment ready to meet 
those challenges.
    Mr. Bost. Thank you.
    Just for the panel in general, and I am going to hope to 
get through this, but what do you--let me tell you that, 
whether it is for a man-made disaster or a natural disaster, we 
have got to be in a position of preparedness. I come from a 
very unique area in the fact that, in 1925, my hometown was 
virtually destroyed in a tornado, and because of that is why we 
have the early warning systems as far as tornadoes. So that was 
the early process as we tried to do this emergency 
preparedness.
    So my question, and it is going to be difficult, but are we 
to a point where we need to be? And if not, what do we need to 
do to get there at a quicker rate?
    Ms. Smith-Reeve. That is a big question. So I think one of 
the things that we can look at is, there are always 
opportunities to evaluate a process, especially after it has 
been ongoing for a certain period of time. So, if we look at 
the Threat Hazard Identification and Risk Assessment and the 
``State Preparedness Report'' process, it feeds up into the 
``National Preparedness Report.''
    Looking at the timing that we have for analysis, it is too 
short. So the 12-month timeframe, by the time you are awarding 
grants based on the previous year's risk assessment, those 
grants are just in process, and then you have to immediately 
turn around and reevaluate your risk level. So there is not 
enough time for practical application to demonstrate growth and 
diminishing those gaps that we recognized in a previous year. 
Moving that timeline a bit will also allow for greater 
participation at the local level because, as you noted, many 
communities are diverse. Within the State of Arizona, we have 
some very large urban centers, but we have a lot of rural 
communities that we serve equally. And so, ensuring that we are 
recognizing their challenges, their gaps, where their risks 
lie, is going to be vastly different than the urban areas that 
we also serve. So, by taking another look at how we do that and 
being a little bit more methodical and concentrating on the 
needs for rural Arizona equal to those urban areas is a way for 
us to move that effort forward.
    Mr. Bost. My time has expired. I will yield back, but I 
will probably follow up with the rest of you. Thank you.
    Mr. Barletta. Thank you.
    The Chair now recognizes Ranking Member Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Smith-Reeve, in your written statement, you discuss a 
proposal to combine all of the preparedness grants into one 
program. Congress has rejected past administration proposals to 
do the same thing. How does NEMA's proposal differ from past 
administration proposals, if at all? And, also, how will 
combining all of those grants lead to more effective spending 
by States and local governments on preparedness activities?
    Ms. Smith-Reeve. Thank you for your question. My apologies 
for the interruption.
    So, with regard to what NEMA, our voting members, had put 
together and proposed to FEMA was a consolidation. What was 
submitted forward from FEMA was different than what was 
proposed by NEMA. And I think there were some things that were 
lost in translation because I guarantee that those to my left 
are probably opposed to what we submitted and proposed as far 
as consolidation of grants.
    The intent with our message was to give greater flexibility 
to all of the parties that are represented within a State's 
boundaries. So, by combining the suite of grants, it would 
allow a State to go through the Threat Hazard Identification 
and Risk Assessment, define where their biggest risk areas are, 
and then allow them to determine where they are spending their 
grant dollars. So, by combining the grants--what you are 
combining are the facets of each. So you are not limiting a 
jurisdiction to only spending a certain amount of money on 
ports, only spending a certain amount of money on the urban 
area, only spending a certain amount of money on fill-in-the-
blank. It allows that jurisdiction to collectively determine 
where their highest risk areas are and allow them to determine 
what funding is required for that.
    Mr. Johnson. OK, thank you.
    Do any of the other panelists have an opinion on the issue 
of combining preparedness grants?
    Mr. Daroff. Yes, sir, Mr. Johnson.
    With the continuing and growing record of threats, 
attempted attacks, and deadly occurrences targeting Jewish 
communal institutions as well as other vulnerable populations 
within the nonprofit sector, we believe there is ample 
justification for Congress to maintain the Nonprofit Security 
Grant Program as a singular standalone initiative as a matter 
of national security preparedness. And Congress should consider 
ways to strengthen the program rather than dismantle it. We 
believe that consolidating the program would disenfranchise at-
risk nonprofit stakeholders who are not able to meaningfully 
participate in or effectively compete with larger, more 
formidable stakeholders for resources in an integrated 
competitive process. So we strongly believe that keeping the 
programs separate and segregated serves the interest of the 
country as well as those of at-risk nonprofits.
    Mr. Johnson. All right. Thank you.
    Anyone else?
    Yes, sir, Mr. Lawless.
    Mr. Lawless. Thank you, Mr. Johnson.
    By reducing the grants--we are totally opposed to making 
those block grants, but by reducing those grants and combining 
these grants into block grants, in our situation, the ports 
would be forced to compete with other interests both on the 
State level and local level for those crucial and vital funds.
    We are international borders. We are ports of entry. We are 
rigidly defined by Federal regulations, and we are forced to 
comply with Federal directives and Federal mandates that are 
usually unfunded. So, to meet those unfunded mandates, the Port 
Security Grant Program has been essential to our success in 
securing our ports.
    Mr. Johnson. Well, Mr. Lawless, if the Port Security Grant 
Program is cut, as proposed by the Trump administration, will 
the ports be able to pick up the slack in funding and maintain 
current levels of security?
    Mr. Lawless. Our position is no. We would like to maintain 
the current level, if not go back to the $400 million that was 
originally appropriated in 2005. That has allowed us to secure 
our ports and to keep the maritime transportation working in a 
secure, safe, and a resilient fashion. So no. We are opposed to 
the 40-percent cut in port security grant funds.
    Mr. Johnson. All right. I thank you.
    My time is out, and I yield back.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. Graves for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman.
    I want to thank all of you for being here today.
    Ms. Smith-Reeves, I have a question for you. I am from 
south Louisiana and had the unfortunate opportunity to ride out 
Katrina, Hurricanes Gustav and Ike in 2008, Hurricane Isaac in 
2012, record high water in the Mississippi River system in 
2011, and a number of other disasters.
    One trend that I see throughout these disasters, and let me 
actually make note probably one of the more profound ones, in 
addition to Katrina, was the August floods where we just had a 
1,000-year flood in my hometown. It is not Government that 
often comes in and actually serves as the first responder. I 
want to be clear: our firefighters and wildlife and fisheries 
agents and others, police officers, have been remarkable. But 
you look at the number of officers and firefighters and others 
we have compared to the number of people affected by some of 
these major disasters, the public plays a huge role. All of 
these planning efforts, in many cases, seem to I guess lack or 
avoid the role that the public plays and the capacity that they 
bring to the table.
    I am just curious at your sort of, you know, 50,000-foot-
level take on the role of individuals and how you best see to 
use that capability and free asset in disaster response and 
preparation.
    Ms. Smith-Reeve. Thank you for that question. And you are 
right in that the public, whom we all serve, are typically the 
first responders in any type of event because we encourage 
them, not only to be prepared to support themselves, their 
families, but also their neighbors and others within their 
community. So efforts to train, inform, and educate are 
critical, and I think we seek out many opportunities to do 
that. One way that I think we could do a better job is--and to 
really shift the visibility and elevate our level of 
preparedness within the members of our community--is to get 
into the schools and start educating the youth in our community 
because those are going to be the future for this Nation. And 
by educating them and informing them on how important it is to 
enhance their personal preparedness level and ways to support 
their community in community preparedness will build resiliency 
within the Nation.
    Mr. Graves. Mr. Crossley, would you care to comment on that 
at all, just the role that you see just a private citizen 
playing in disaster response?
    Mr. Crossley. So one of the phrases I commonly use when I 
talk to citizen groups is there are 2,000 of us and 800,000 of 
you. So we actively engage, and so a lot of this is done at the 
local level when you talk about engaging the citizens in 
helping with the disaster response and recovery. And so myself 
and many of my counterparts across the country, we use the 
former--or current Citizen Corps Program, the Community 
Emergency Response Team concept, and then we work a lot through 
the voluntary organizations. So there is almost a group for 
everybody that they can affiliate with. And so we work with our 
community members to develop spontaneous volunteer plans. We 
both do it virtually through 211 and 311 to make sure that they 
are engaged and know where the volunteer opportunities are 
because we like people to be engaged. So you don't want people 
just randomly showing up and doing, in your case, flood 
remediation. So I have done flood remediation in Slidell in 
1996, if you remember that flood. And so what we do is, from 
the planning perspective, we start to work with our community 
partners because, that way, you keep it organized, the Red 
Cross, The Salvation Army, the various religious groups. We are 
doing a big effort right now with our Jewish community center. 
And so we work with them to accept volunteers. We develop the 
structure under which they can operate and then, during a 
disaster, one of our first goals is to get that information out 
there: here is how you can help. And so I agree with you that 
it is critical, and it is the only way that the few thousand 
Government employees are going to be able to serve, as Chairman 
Barletta, asked, how are you going to handle the masses in a 
disaster? So I think that has been supported under the National 
Preparedness System to develop those plans, to develop those 
procedures, and that is where myself and many of my colleagues 
are going on a local level because, at the end of the day, I am 
the face to the public, along with the board of county 
commissioners, that says, how are you responding to this 
disaster? So we are putting that in place.
    Mr. Graves. Very quickly. So I just want to make sure I 
understand. So you actually, in a very dynamic environment of a 
disaster, you actually adapt your volunteer efforts to that 
particular disaster and begin communicating with constituents, 
with citizens about how they can assist and what they can do to 
assist, is that----
    Mr. Crossley. Yes, you have to; otherwise, they will do it 
anyway. So we want to coordinate financial donations as well as 
physical donations and then donations of time. So we put these 
plans and procedures in place and work with our voluntary 
partners to help corral that and send it where it is needed 
based on our damage assessments and our long-term recovery 
needs.
    Mr. Graves. Thank you.
    And thank you again all for your testimony.
    Mr. Barletta. Thank you.
    The Chair now recognizes Mr. Sires for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    And thank you to the panelists for being here.
    I am also a former mayor from a community across from the 
9/11 towers. And if I learned anything in my years as mayor is 
how unprepared we were to deal with a disaster. I mean, one 
community didn't know what to do with the other one; one fire 
department didn't coordinate. I also represent the tunnels. The 
tunnels were closed. People were coming down; they didn't know 
that the tunnels were closed. Everybody sent their fire trucks 
and their rescue teams trying to help, but we were so 
unprepared. And this is a topic that I worked on over the 
years.
    Today we are much better. The county works a lot better. 
There is more coordination. There is more communication. There 
is more equipment because of the grants that we have been 
receiving. And we are a lot better prepared now than we were.
    So my concerns are with the cuts. You know, I represent the 
ports. I represent the Port of Newark, the Port of Elizabeth. 
And if we get a cut what they are talking about, it is going to 
be devastating for our security, all those ports. A small 
attack could paralyze the commerce on those ports.
    So I guess what I am trying to do, Mr. Lawless, is I have 
gotten the message that you are as concerned as I am regarding 
the security of these ports.
    Mr. Lawless. We are very concerned about the cuts to the 
Port Security Grant Program. We have worked hard over these 
last 15 years to achieve a certain level of security. We hope 
to maintain that level of security. But you are correct, Mr. 
Sires, on the potential for an attack in a port; that could 
result in the closure of most ports around the country, which 
would have a dramatic and devastating impact to our economic 
vitality as a country. And we are hopeful that we can maintain 
that level of security, and our goal is to prevent any type of 
attack in the ports.
    Just to mention working together with, integrating with our 
fire departments and our police departments, we heard from 
Mayor Pugh talk about the Boston Marathon bombing and the 
success of the first responders in saving lives and responding 
to that attack. That is all the result of training that we do 
together: exercising, drilling, meeting, having plans in place. 
And a lot of that has been the result of Port Security Grant 
Programs, UASI grant programs that have supported those 
training programs. And without those programs, it will be 
difficult for local cities and towns, States and port 
authorities to continue that high level of interaction of 
training and of equipping our first responders to meet these 
challenges that we face every day.
    Mr. Sires. You know, I am one of those people that believes 
that the fire department, you can't get them enough equipment, 
you know. And it is very expensive. I don't think the community 
knows how expensive it is. But today, with all the requirements 
that fire departments and fire and the type of equipment, I 
don't think you can survive without grants. I don't think these 
communities could make it without some form of grants. So----
    Mr. Martynuska. I agree, Representative. I have to be--my 
career was in the city of Johnstown, where we have had our 
share of natural disasters, man-made and both. But I was on 
duty when 9/11 took place, and I saw what happened during the 
day. As we all know, flight 93 came down about 15 miles from 
where we were working. We evacuated downtown and how it 
stretched our resources. The communication system collapsed. 
The cellular system collapsed on the day that that happened. It 
changed our world as we knew it. And, personally, I was one of 
three or four hazardous materials technicians. And in the 
coming months, we ran hundreds of white powder calls because we 
did not have a hazmat team. We have since built that hazmat 
program. We have since done urban search and rescue, confined 
space rescue, river rescue, all because we had moneys available 
to do that.
    My concern is with the taxing of the resources that we have 
is maintaining the infrastructure we have been able to build. 
It is very difficult for small communities to provide those 
resources as it is. And if there are cutbacks to that, it is 
going to make it even more difficult for those choices they 
have to make.
    Mr. Sires. My time is up, Mr. Chairman. Thank you very 
much.
    Mr. Barletta. OK, thank you, Mr. Sires.
    Mrs. Napolitano
    Mrs. Napolitano. Thank you, Mr. Chairman.
    And thank the panelists for this long hearing. It is really 
important.
    I come from a different point of view, and I ask Ms. 
Reeves--Smith-Reeves, Mr. Crossley, Mr. Martynuska, and Mr. 
Roberts, what do you think your first responders, your men, 
your women, are prepared mentally? There are many suicides 
within the fire department and many other securities that we 
need to be concerned with because our first responders face 
many, many challenges. They deal with work-related tragedies, 
and they have to take it home. Are you prepared to give them 
mental health services, and would these grants cover that 
training?
    Ms. Smith-Reeve. I will let Mr. Roberts start.
    Mr. Roberts. So, from a law enforcement perspective, we 
have robust employee assistance programs that deal with stress. 
The police officers deal with a lot of the things that the rest 
of society doesn't want to deal with. We are the ones left to 
deal with it. And I think it really impacts our employees. We 
have a pretty robust program that deals with that. However, 
these Federal funds aren't used or intended to be used for that 
type of program although there is a need. I believe there is a 
definitely a need, not only in our profession but in the 
firefighters and other first responders. So there could be 
niche there.
    Mr. Martynuska. I will echo Mr. Roberts' comments. The 
subject of PTSD in the fire service is reaching epidemic 
proportions. Just this week in the State of Pennsylvania, we 
witnessed three line-of-duty deaths. And working with our 
members across the State, you can see the toll that that takes 
on them. And we hear about this every day.
    The grant program doesn't cover that. We are making strides 
to get our folks the help they need through our international 
and through our State associations, but there is definitely a 
lag with that type--first on recognition and then on moneys to 
help.
    Mr. Crossley. Again, I agree with their comments about the 
grant funds specifically funding that for first responders. I 
know, in my line of work, we do, as part of our training 
program, offer training on disaster mental health because you 
have to watch--I have responded everything since 9/11 to 
disasters in Kansas and Ohio, and I know that the stress of 
seeing the devastation that can happen after disaster. So we do 
provide training on how to plan to deal with those effects, not 
with the direct impact of a chief taking it back to their 
department. And we do depend on the employee assistance 
programs and the particular incident stress debriefing to 
handle those. But the grant support for it to expand that and 
deal with the day-to-day stressors would definitely then have 
the direct impact of supporting if there was a major disaster 
and you see that kind of devastation.
    Ms. Smith-Reeve. And this is also an opportunity to for us 
to leverage other partners and their grants and mission sets, 
such as Department of Health Services. One of the things that 
they also support is behavioral health aspects. And so these 
critical incident stress management teams that do come in and 
provide the support that has been discussed helps the first 
responders and ensures that their families are also taken care 
of at the same time. So it is vitally important to everything 
that we do, especially in these high-stress environments.
    Mrs. Napolitano. Well, I realize that this is not directly 
addressed in the FEMA, but it is important to note that many of 
the tragedies, especially in bus or rail systems, sometimes 
mental health plays a big part in people--well, being 
antisocial. Let's put it that way. I would hope that, in the 
future, you would consider maybe asking for inclusiveness in 
the program to deal with that because, as much as you can give 
them equipment to ready them for the purpose, you should equip 
them for their well-being.
    Thank you, Mr. Chair.
    Mr. Barletta. Thank you.
    The Chair recognizes Ms. Titus for 5 minutes.
    Ms. Titus. Well, thank you very much, Mr. Chairman.
    And thank you for letting me sit in on this subcommittee. 
You know, I represent the heart of the Las Vegas Valley, from 
the airport down the fabulous strip to downtown. So this issue 
of emergency preparedness is very important to my district.
    I am also especially delighted that we have as one of our 
guests and members of the panel our assistant sheriff, Mr. 
Roberts, from Las Vegas to give you some perspective of the 
unique challenges that we face. Not only do 2 million people 
live there in the valley, but we welcome every year over 42 
million visitors from all around the world, speaking all kinds 
of different languages and don't know how to find an exit 
except from the Paris Las Vegas Hotel and Casino to the New 
York-New York Hotel and Casino, which is a 20-minute walk. So 
we need the help.
    Not only do we have all these strangers in town, we hosted 
the last year 4 of the top 10 largest trade shows in the world, 
including consumer electronics, which brought in over 170,000 
people in a short number of days, just that one convention 
alone. Electric daisy carnival welcomes more than 320,000 
attendees. We have 11 of the 20 largest hotels in the world in 
my district. And pretty soon we are likely to see the Raiders 
playing there in the district too. And that is going to bring 
even more crazy people to town. I am a Raider fan; so I can say 
that.
    So, when we talk about UASI funding and the Department of 
Homeland Security, we have special challenges. You heard Mr. 
Roberts say that the formula is not constructed well to take 
into account places like Las Vegas. We have been saying this 
for years that the formula is funded. It fails to reflect the 
impact that a terrorist attack would have, not only on the 
regional economy, but also on neighboring Nellis, on Creech, on 
Boulder Dam, all of those things are left out of formula. We 
need it to be updated. And every year, we go back and ask for a 
little more money for Las Vegas and get a little more, but that 
is not enough. It is not way the formula should work.
    So I would ask you, Sheriff Roberts, two questions. One is, 
would you give us--and you mentioned this just superficially--
some specifics of how that formula needs to be changed, like 
recognizing convention centers as opposed to lumping them all 
into one? And, second--and all of you can weigh in on this--is 
that this money is supposed to go to improve our preparedness, 
make us less susceptible to whatever the catastrophe might be, 
but do we really do a good job of evaluating how efficiently 
that money is spent? Because we seem to give the same amount of 
money to the same people every year. Are they just adding 
things, or are they really improving the situation? Mr. 
Roberts?
    Mr. Roberts. Thank you, ma'am. So the one issue that we 
have that you mentioned is clustering. We have several of the 
world's largest hotels in the world, but they are treated as 
one cluster under the threat analysis program. So we don't 
really get a true reflection of the threat that should be 
measured. Another issue is we don't include two of our large 
military installations that are there. They are covered under 
another program. However, those folks live in our community, 
and there are threats in our community that those grants that 
are covered by the military don't cover. So we do that out of 
the minuscule amount of money that we get from UASI.
    And then, to Congresswoman Titus' point, as far as the 
second portion of your question--and I have already forgotten 
now. Sorry.
    Ms. Titus. Efficiency----
    Mr. Roberts. Oh----
    Ms. Titus. How do we evaluate it?
    Mr. Roberts. So to the point that she makes is that, 
oftentimes, there is a lot of money built on target hardening 
or a lot of grant justification built on target hardening, but 
because the grant cycle is so long and they are reapplying for 
grants in such a short time, there is no evaluation on what was 
done with those funds. And so I believe that that should be an 
important part of the process, is that--because some of the 
larger agencies--I am not going to name any, but we have 
visited, that I have been before--they can't spend the money 
that they get because they get so much of it. And some of the 
smaller, lower UASI areas just don't get any funds.
    Ms. Titus. Anybody else want to answer this?
    Mr. Daroff. I would just add, Ms. Titus, that the Nonprofit 
Security Grant Program is considered efficient and effective. 
Hundreds of nonprofits have received funds, including the 
Jewish Federation in Las Vegas. The decisions are made by local 
law enforcement doing assessments of the physical plant and 
then with Federal law enforcement making the final decision. 
The grants are capped at $75,000, thereby assisting many, many 
nonprofit organizations annually who have been assessed to be 
at high risk. So it is a vibrant program and one that we 
endorse as being very helpful in protecting at-risk nonprofits.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Barletta. Thank you.
    These are all important programs. They have a strong return 
on investment. They save lives and money in post-disaster 
recovery. The National Preparedness System and the grants that 
help implement it allow the Nation to share critical response 
capabilities between States and communities so that every State 
doesn't have to duplicate those capabilities. The system is a 
force multiplier, and it is money well spent. Not every State 
can afford an urban search-and-rescue team or a chemical 
response team, but this system gives them access to such teams 
when they need them. In addition, the Pre-Disaster Mitigation 
Grants are a competitive program that hardens high-risk 
properties so they avoid damage during disasters.
    Study after study has shown $1 spent on mitigation saves $4 
in future disaster spending over the life of the project. The 
way to save on disaster cost is to prepare for disasters and 
reduce disaster damage. If we are not prepared, recovery can be 
delayed by years and add billions in Federal disaster spending, 
economic losses, and lost tax revenue. When it comes to pre-
disaster mitigation, prevention is worth its weight in gold.
    Thank you all for your testimony. Your comments have been 
helpful to today's discussion.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. If no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              [all]
    
                                    
</pre></body></html>
